    OFFICE OF INSPECTOR GENERAL

               FOR THE

MILLENNIUM CHALLENGE CORPORATION

   SEMIANNUAL REPORT

    TO THE CONGRESS

      April 1, 2005 - September 30, 2005

                              Inspector General

               HOTLINE
The Office of Inspector General (OIG) maintains a Hotline to make it easy to report allegations
of fraud, waste, abuse, mismanagement or misconduct in the programs and operations of the
United States Agency for International Development (USAID), the Inter-American Foundation
(IAF), the African Development Foundation (ADF), and the Millennium Challenge Corporation
(MCC). USAID, IAF, ADF and MCC employees, contractors, and program participants or the
general public may report allegations directly to the OIG. The Inspector General Act of 1978 and
other laws protect persons making hotline complaints. Submit complaints by e-mail, telephone,
or mail to:

Phone 	                1-202-712-1023
                       1-800-230-6539

E-mail 	               ig.hotline@usaid.gov

Mail 	                 USAID OIG HOTLINE
                       P.O. Box 657

                       Washington, DC 20044-0657


Individuals who contact the Hotline are not required to identify themselves. However, the OIG
encourages those who report allegations to identify themselves so they can be contacted if additional
questions arise as OIG evaluates their allegations. Pursuant to the Inspector General Act of 1978, the
Inspector General will not disclose the identity of an individual who provides information unless that
individual consents or unless the Inspector General determines that such disclosure is unavoidable
during the course of an investigation. You may request confidentiality when using the telephone or
mail. E-mail complaints cannot be kept confidential because electronic e-mail systems are not secure.




U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
Ofﬁce of Inspector General
  for the
Millennium Challenge Corporation
                                                 October 28, 2005

The Honorable Condoleezza Rice
   Secretary of State & Chair, Board of Directors
Mr. Charles O. Sethness
   Acting Chief Executive Ofﬁcer
Millennium Challenge Corporation
875 Fifteenth Street, NW
Washington, DC 20005

Dear Madam Secretary and Mr. Sethness:

        I am pleased to present to you and the Congress of the United States our third
independent report on the accomplishments of the Ofﬁce of the Inspector General (OIG) in
reviewing the activities of the Millennium Challenge Corporation (MCC). This report is for
the six-month period ending September 30, 2005, and is issued in compliance with the
Inspector General Act of 1978, as amended.

         We continued our proactive involvement with the Corporation and the Board of
Directors in order to fulﬁll our responsibilities under the Consolidated Appropriations Act of
2004 (Public Law 108-199), which designated the U.S. Agency for International Development
Inspector General as the Inspector General for the MCC. For example, in May 2005,
Madam Secretary, the former Acting Inspector General and staff from this ofﬁce briefed you
on our role with the Corporation. OIG staff attended the Board meeting in May 2005, and
later briefed Board members on our audit plans and budget request for ﬁscal year 2006.

         During this reporting period, we visited two countries that had recently signed Compacts
to assess plans and capabilities for accountability and audit oversight. And we issued three audit
reports including recommendations to improve information security, procurement management,
and coordination with other donors.

       I appreciate the courtesy and assistance extended to OIG staff during our work
with your organization. The OIG remains committed to helping the Millennium Challenge
Corporation achieve ultimate efﬁciency and effectiveness in its operations.

                                                 Sincerely,



                                                 Paula F. Hayes
                                                 Acting Deputy Inspector General
U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
                Semiannual Report to the Congress


                         Acronyms
ADF       African Development Foundation

AIG/MCC   Assistant Inspector General/Millennium Challenge Corporation

CEO       Chief Executive Ofﬁcer

CSC       Le Conseil Superieur de la Comptabilite (Madagascar Accounting Standards Body)

DOI       Department of Interior

FAR       Federal Acquisition Regulations

FISMA     Federal Information Security Management Act

GAO       Government Accountability Ofﬁce

IAF       Inter-American Foundation

IG Act    Inspector General Act of 1978

MCA       Millennium Challenge Account

MCC       Millennium Challenge Corporation

NBC       National Business Center

OECFM     L’Ordre des Experts Comtables et Financiers de Madagascar
          (Madagascar Professional Association of Accountants)

OIG       Ofﬁce of Inspector General

OMB       Ofﬁce of Management and Budget

SAI       Supreme Audit Institution

USAID     United States Agency for International Development


                                                               April 1, 2005 — September 30, 2005
                                                                                                                                                                            i
                                         Semiannual Report to the Congress


                                            Table of Contents

Reporting Requirements ................................................................................................................................ ii


Executive Summary ......................................................................................................................................... 1


Overview of IG Organization........................................................................................................................ 2


           Mission ................................................................................................................................................... 2

           Organization ......................................................................................................................................... 2


The Millennium Challenge Corporation - Highlights............................................................................... 4


           The Millennium Challenge Corporation ........................................................................................ 4

           Progress Since September 2004 ...................................................................................................... 4

           MCC Signs Compacts with Five Countries ................................................................................... 4


Applicability of Procurement Regulations to Millennium Challenge Corporation............................ 6


Safeguarding MCC Resources and Improving Prospects for Successful

Program Implementation................................................................................................................................ 7

           Background ........................................................................................................................................... 7

           Building a Foundation for Accountability ....................................................................................... 7
           Sound Accountability and Oversight of Compacts ...................................................................... 8

           Ensuring Sound Oversight and Accountability through Coordination with

           Other Government Entities ............................................................................................................13


Strategic Objectives to Address Management Challenges ....................................................................15


           Introduction ........................................................................................................................................15

           Keeping Congress and the Head of the Organization Fully Informed on the

           Status of the MCC’s Administration and Operations and the Need for

           Corrective Action ..............................................................................................................................15

           Promoting Sound Accounting and Reporting On Financial Activities and

           Information Security .........................................................................................................................16

           Promoting Economy, Efﬁciency and Effectiveness, and Assessing Program Results ............17

           Preserving and Protecting the Millennium Challenge Corporation’s Program

           and Employee Integrity.....................................................................................................................18


Appendices.......................................................................................................................................................21




                                                                                                                           April 1, 2005 — September 30, 2005
ii
                               Semiannual Report to the Congress


                         Reporting Requirements

     The Inspector General Act of 1978, as amended, requires each Inspector General to submit semiannual
     reports to the Congress summarizing the activities of the office during the preceding six-month period. The
     required reporting areas, as prescribed under Section 5(a) of the Act, include the following:

                                      Reporting Requirement                                      Location

     Significant Problems,Abuses and Deficiencies                                                 Page 6


     Recommendations for Corrective Actions                                                       Page 16


     Summary of Each Significant Report                                                           Page 16

                                                                                                Appendix A
     List of Audit Reports Issued
                                                                                                 Page 22

     Summary of Each Audit Report over Six Months Old for Which No Management                   Nothing to
     Decision Has Been Made                                                                      Report

     Significant Prior Recommendations on Which Corrective Action Has Not Been                  Appendix A
     Completed                                                                                   Page 22

                                                                                                Nothing to
     Statistical Table of Reports with Questioned and Unsupported Costs
                                                                                                 Report

                                                                                                Nothing to
     Statistical Table of Reports with Recommendations That Funds Be Put to Better Use
                                                                                                 Report

                                                                                                Appendix B
     Summary of Instances in Which Information or Assistance was Refused
                                                                                                 Page 23

                                                                                                Appendix B
     Decisions and Reasons for Significant Revised Management Decisions
                                                                                                 Page 23

                                                                                                Appendix B
     Significant Management Decisions with Which the Inspector General Disagrees
                                                                                                 Page 23

     Remediation Plan Information (Required under the Federal Financial Management              Appendix B
     Improvement Act of 1996)                                                                    Page 23

     Matters Referred to Prosecutive Authorities and the Prosecutions and Convictions           Nothing to
     Which Resulted                                                                              Report

April 1, 2005 — September 30, 2005

                                                                                                            1
                          Semiannual Report to the Congress


                          Executive Summary

This semiannual report highlights signiﬁcant          2004 and planning to do so in ﬁscal year 2005,
events regarding the Ofﬁce of Inspector               it had not established and documented its infor-
General (OIG) and presents the results of the         mation security program as required by FISMA.
OIG’s activities and efforts with respect to the      Consequently, MCC’s operations and assets are
Millennium Challenge Corporation (MCC) for            at risk of fraud, misuse, and disruption. The audit
the six-month period ended September 30, 2005.        report included eight recommendations to assist
During this reporting period, we continued our        MCC in strengthening its information security
policy of early and proactive involvement with        program. MCC Management agreed with the
MCC, focusing on Compact accountability, safe-        audit ﬁndings and agreed to implement all eight
guarding resources, and helping MCC succeed in        recommendations. As a result, a management
its mission.                                          decision has been reached on each of the eight
                                                      recommendations. (See page 16)
In May 2005 we attended MCC Board meeting
and met with the new Secretary of State and           Another audit, currently in process, highlighted
Chair of the Board to brief her on OIG poli-          several contracting weaknesses, especially
cies and operating preferences and to learn her       MCC’s need to deﬁne and adhere to the Federal
concerns and areas of interest regarding MCC.         Acquisitions Regulations (FAR) that govern its
We also visited two countries with which MCC          procurement operations. The FAR states that
had recently signed Compacts to assess the            wholly owned Government Corporations are
implementing agencies’ accountability capabilities    subject to its requirements. That audit report is
and local accounting ﬁrms’ auditing capabilities.     expected to contain several recommendations,
To assist program managers in meeting audit           one of which will be that MCC acknowledge
responsibilities, we developed guidelines for         the applicability of Federal procurement laws
auditing the Compact programs.                        and disseminate that acknowledgement to MCC
                                                      staff. (See page 6)
During this reporting period, the Ofﬁce of
Inspector General issued two reports addressing       As of September 30, 2005, MCC had signed ﬁve
MCC’s information and information system secu-        Compacts with a value of $905 million. These
rity, and its coordination with other donors. We      Compacts are with Madagascar, Honduras, Cape
also initiated audits of MCC’s employee beneﬁts       Verde, Nicaragua, and Georgia. MCC plans to
program; its contract management system; its          sign Compacts with four additional countries by
progress in achieving its planned organizational      the end of December 2005.
structure and beginning its assistance programs,
and its ﬁscal year 2005 ﬁnancial statements. No       To assist selected countries (Threshold
investigations were initiated during this reporting   Countries) to become eligible for Compact
period. The two reports contained nine recom-         funding, MCC’s Board of Directors has approved
mendations to correct noted problems. Because         $185 million for the United States Agency for
of continued cooperation, the OIG and MCC             International Development (USAID) to use in
management have reached “management deci-             providing eligibility assistance, of which $80
sions” on eight of the recommendations, and           million has been allocated to USAID as of
“ﬁnal action” has been completed on the other.        September 30, 2005.

One of the reports issued was on our second
audit of MCC’s compliance with provisions of the
Federal Information Security Management Act
of 2002. That audit concluded that, while MCC
partially met the FISMA requirements by reporting
on its information security program in ﬁscal year

                                                                          April 1, 2005 — September 30, 2005

2
                              Semiannual Report to the Congress

                                                Overview

    In addition to MCC, the USAID Ofﬁce of Inspector      Organization
    General (OIG) is responsible for providing audit
    and investigative services to the United States       The OIG is organized into four areas of responsi-
    Agency for International Development, the African     bility, with Assistant Inspectors General for each
    Development Foundation (ADF), and the Inter-          area: Investigations, Audit, MCC and Management.
    American Foundation (IAF). Each of these agencies     There are seven overseas ﬁeld ofﬁces, each
    disburses and manages U.S. international develop-     headed by a Regional Inspector General, located
    ment assistance.                                      in Baghdad, Iraq; Cairo, Egypt; Dakar, Senegal;
                                                          Frankfurt, Germany; Manila, Philippines; Pretoria,
    Mission                                               South Africa; and San Salvador, El Salvador. These
                                                          regional ofﬁces maintain close working relation-
    The Inspector General Act of 1978 (IG Act),           ships with the USAID missions in their regions,
    as amended, established OIGs as independent           and their presence in the ﬁeld enables auditors
    and objective units created to (1) conduct and        and investigators to carry out the OIG’s responsi-
    supervise audits and investigations relating to the   bilities efﬁciently.
    programs and operations of their respective estab-
    lishments; (2) provide leadership and coordination    OIG activities for MCC are led by an Assistant
    and recommend policies designed to promote            Inspector General (AIG/MCC). The AIG/MCC
    economy, efﬁciency, and effectiveness and prevent     oversees a Deputy Assistant Inspector General,
    and detect fraud and abuse in the establishment’s     who is responsible for a Financial Audits Division
    programs; and (3) provide a means for keeping         and Performance Audits Division. As MCC
    the head of the establishment and the Congress        develops and expands its programs, the AIG/MCC
    fully and currently informed about problems and       will need to expand its staff to provide effective
    deﬁciencies relating to the administration of the     audit oversight of MCC’s worldwide programs.
    establishment’s programs and operations and the       The AIG/MCC is actively recruiting additional
    necessity for, and progress of, corrective action.    audit staff and will continue to draw on support
                                                          from external audit ﬁrms when appropriate and
                                                          the OIG’s overseas and Washington ofﬁces as
                                                          necessary in order to accomplish our oversight
                                                          responsibilities. For example, the two audit reports
                                                          issued this reporting period on MCC’s compliance
                                                          with provisions of the Federal Information Security
                                                          Management Act of 2002, and its coordination with
                                                          other donors, were accomplished with support
                                                          from the OIG’s Washington audit ofﬁces. Our
                                                          audits of MCC’s employee beneﬁts program and
                                                          the ﬁscal year 2005 ﬁnancial statements, currently
                                                          underway, are being done by a contracted certi-
                                                          ﬁed public accounting ﬁrm. Our fraud-awareness
                                                          brieﬁng to MCC personnel included presenters
                                                          from our OIG Investigations unit.




April 1, 2005 — September 30, 2005

                                                                                                                        3
                             Semiannual Report to the Congress


                USAID Ofﬁce of Inspector General


                                               Inspector General
                                                                                           Counsel to
                                                Deputy Inspector General                  the Inspector
             Special Assistant
                                                                                             General




  Assistant Inspector             Assistant Inspector            Assistant Inspector          Assistant Inspector
General -- Investigations          General -- MCC              General -- Management           General -- Audit




     Deputy AIG/I           Deputy AIG/MCC              Deputy AIG/M          Deputy AIG/A            Deputy AIG/A




     Headquarters                                         Human
      Liaison &                                           Capital                                 Headquarters
     Coordination              Financial                  Division            Financial            Liaison &
       Division              Audits Division                                Audits Division       Coordination
                                                                                                    Division
                                                          Financial
       AFR/ANE                                                               Information 

                                                         Resources
        Division              Performance 
                                 Technology &          Performance
                                                          Division
                             Audits Division                                Special Audits       Audits Division
                                                                               Division

       LAC/E&E                                           Information
        Division                                         Technology

                                                           Division





                                          Regional Inspector General Offices




                                                                                                              San
   Baghdad           Cairo            Dakar             Frankfurt        Manila          Pretoria
                                                                                                           Salvador
     Iraq            Egypt           Senegal            Germany        Philippines     South Africa
                                                                                                          El Salvador


                                                                                     April 1, 2005 — September 30, 2005
4
                                             Semiannual Report to the Congress


    The Millennium Challenge Corporation - Highlights

        The Millennium Challenge                                                    • 	 signed ﬁve development assistance Compacts.

        Corporation	                                                               MCC Signs Compacts with Five
        The Millennium Challenge Corporation was created                           Countries
        in January 2004 as an Independent Government
        Corporation to provide development assistance                              As of September 30, 2005, MCC has signed
        to reduce poverty in countries that meet MCC’s                             Compact agreements with:
        criteria of governing justly, investing in their people,
                                                                                    • 	 Madagascar for $110 million to improve land
        and encouraging economic freedom. MCC is
                                                                                        titling, promote ﬁnancial sector reform, and
        located in Washington, D. C. with a staff of about 	
                                                                                        enhance investment opportunities in rural
        140 full-time employees.	
                                                                                        areas. The grant will support a program
        MCC contracts with the Department of Interior’s                                 designed to raise incomes by bringing the
        National Business Center in Denver, Colorado for                                rural population from subsistence agriculture
        its accounting, payroll and other administrative                                to a market economy.
        services.1 MCC also has agreements with the Army
                                                                                    • Cape Verde for $110 million to support
        Corp of Engineers, the Department of Agriculture,
                                                                                      the country’s goal of poverty reduction
        and the Treasury Department for technical services
                                                                                      and economic growth. The Compact will
        supporting Compact implementation.	
                                                                                      help transform Cape Verde by making
                                                                                      sizeable investments in water resources,
        Progress Since September 2004	                                                agricultural productivity, major port and road
                                                                                      improvements, and initiatives to promote
        MCC has made signiﬁcant progress during the
                                                                                      the private sector, including improving the
        12-month period ended September 30, 2005. For
                                                                                      investment climate and making ﬁnancial sector
        example, MCC:	
                                                                                      reforms.
         • 	 has built a skeleton staff of less than 60 to its
                                                                                    • 	 Honduras for $215 million to reduce poverty
             current level of over 140 employees;
                                                                                        and spur economic growth by increasing the
         • 	 developed operating policies and procedures                                productivity of high-value crops and improving
             for its operations;	                                                       transportation links between producers and
                                                                                        markets.
             	
         • moved       into            permanent              headquarters
           facilities;                                                              • 	 Nicaragua for $175 million to spur economic
                                                                                        growth by funding projects aimed at reducing
         • 	 developed a system for managing ﬁnal actions                               transportation costs and improving access
             on OIG audit recommendations;	                                             to markets for rural communities, increasing
                                                                                        wages and proﬁts from farming and related
         • signed a USAID-MCC Threshold agreement 	                                     enterprises in the region, and increasing
           with Burkina Faso to assist that country to                                  investment by strengthening property rights.
           become eligible for a future Compact; and
                                                                                    • 	 Georgia for $295 million to reduce the poverty
    1
      The National Business Center is an administrative and computer information
                                                                                        of some half million people by rehabilitating
    service provider for the Department of Interior and other federal agencies.         regional infrastructure, such as ensuring

April 1, 2005 — September 30, 2005

                                                                                                              5
                           Semiannual Report to the Congress

    reliable natural gas transmission and promoting      proposal contemplates the development of a large-
    private sector development.                          scale industrial, commercial, and residential site to
                                                         address one of Senegal’s greatest barriers to poverty
As of September 30, 2005, Madagascar and Honduras        reduction and economic growth—the lack of suitable
have met the conditions precedent to funding, and        space for commercial and industrial expansion on
Madagascar has requested $2,500,924—the ﬁrst             the Dakar Peninsula. Ghana is proposing to become
request for Compact program funds—for project            a world-class exporter of high-value fruit and
administrative costs. Also, MCC has signed grant         vegetables by creating a strong investment climate.
agreements with the Governments of Senegal, Ghana        Mozambique plans to improve water, sanitation and
and Mozambique to provide up to $6.5, $3.0 and           business development services.
$6.0 million, respectively, to assist these countries
in developing Compacts.          Senegal’s Compact



                               The Compact Countries




     Honduras               Nicaragua             Cape Verde            Madagascar              Georgia




                                                                              April 1, 2005 — September 30, 2005
6
                                            Semiannual Report to the Congress


    Applicability of Procurement Regulations to Millennium 

                      Challenge Corporation

    Established in January 2004, the Millennium                                     not apply to MCC because the Corporation’s
    Challenge Corporation, until recently, was                                      enabling legislation (the Millennium Challenge Act
    essentially in a start-up mode: hiring staff,                                   of 2003) gave MCC flexibility in their applicability.
    securing a permanent office location, establishing                              Nevertheless, they have followed the FAR in the
    its administrative procedures, selecting candidate                              absence of any MCC procurement policies and
    countries for Compacts, and accomplishing other                                 procedures. The Office of Inspector General
    tasks related to establishing a new organization.                               discussed the issue with officials in the Office of
                                                                                    Federal Procurement Policy and Small Business
    During its first year of operations, MCC’s                                      Administration and found no support for MCC’s
    procurement function was primarily carried out                                  position. Nor did the OIG find support for
    by a series of temporary contractor employees                                   this position in MCC’s enabling legislation.
    under the direction of a contracting officer.                                   Furthermore, the Government Accountability
    However, by June 30, 2005, MCC had established                                  Office’s Principles of Federal Appropriations
    an Acquisitions Office consisting of five full-time                             Law states that the procurement laws and
    direct-hire contracting officers and specialists.                               regulations do apply to wholly owned government
                                                                                    corporations such as MCC.
    MCC’s Acquisitions Office is responsible for
    the procurement of all supplies and services                                    Subsequent to our audit field work, MCC officials
    for the various program offices of MCC. From                                    determined that the FAR does apply to MCC, and
    its inception until May 31, 2005, MCC made                                      MCC officials indicated they will disseminate clear
    approximately 200 awards, including contracts,                                  guidance to its staff stating that the FAR does apply
    purchase orders, agreements with other Federal                                  to MCC.
    agencies, and blanket purchase orders. These
    awards were for purchases as small as a $30
    newspaper subscription but also included awards
    exceeding $1 million.

    Given the significant amount of contracting MCC
    has already done and is expected to do as it
    expands it operations, the AIG/MCC initiated an
    audit of MCC’s contracting practices to determine
    whether MCC had complied with applicable laws
    and regulations in awarding its contracts.2

    The most significant issue disclosed by the audit
    is the applicability of Federal procurement
    regulations—such as the Federal Acquisition
    Regulations (FAR) and Small Business Act—to
    MCC’s domestic procurements. MCC officials
    had initially stated that these regulations did

    2
      Audit coverage did not extend to MCC’s compacts with foreign governments or
    to purchases made overseas.


April 1, 2005 — September 30, 2005

                                                                                                                                            7
                         Semiannual Report to the Congress


Safeguarding MCC Resources and Improving Prospects 

       for Successful Program Implementation

Background                                           oversight efforts and establish reporting
                                                     requirements.     Some Federal Government
The Millennium Challenge Corporation is              organizations will provide support to or
an Independent Government Corporation                implement certain MCC programs. For example,
established by Congress in January 2004. As          USAID administers the MCC Threshold
such, it is subject to the regulations of the        program. 3 As of September 30, 2005, $80
Government Corporation Control Act, which            million has been allocated to USAID, and an
provides it some ﬂexibility compared to Federal      additional $105 million has been approved for
agencies. However, MCC is subject to many            future allocation to implement the Threshold
similar laws and regulations as Federal agencies,    program.
including the requirements for accountability and
sound management. MCC is still in the process        During this reporting period, we focused
of identifying which laws and regulations to which   our efforts on ensuring effective use of MCC
it is subject.                                       resources by directing our proactive and early
                                                     involvement to the greatest vulnerabilities of
As of September 30, 2005, MCC had signed             MCC program and administrative activities.
ﬁve country Compacts with a total value of           The OIG has taken and continues to take
$905 million and has made program-related            the approach that early involvement in MCC
disbursements of $2.5 million under one of those     activities will help ensure good oversight. As
Compacts.                                            MCC develops its program and operating
                                                     concepts and procedures, we work closely
Building a Foundation for                            with its executives and managers to enhance
                                                     our knowledge of MCC’s programs, activities,
Accountability                                       and vulnerabilities, including its administrative
                                                     and accounting processes. In a proactive and
The overriding goal of the OIG is to help
                                                     collaborative manner, we seek to establish
MCC become a viable, secure, and successful
                                                     a framework for providing early feedback to
organization by conducting systemic reviews
                                                     ensure that MCC administrative functions
and, where warranted, recommending changes
                                                     and Compact programs are based on a solid
that will lead to improvements within MCC’s
                                                     foundation of effective controls.
programs and operations. Our activities are
designed to prevent and detect fraud, waste and      We also presented our third fraud-awareness
abuse; safeguard MCC resources; and ensure the       briefing to Corporation staff to enhance their
economy, efﬁciency and effectiveness of MCC’s        understanding of fraud indicators and the
administrative and program operations.               potential for fraud occurring in MCC’s program
                                                     and administrative activities.
We build safeguards for fraud prevention and
resource protection through collaborative and
proactive involvement with MCC management
concerning the nature, timing and depth of our
audit and investigative programs. Resource
protection is further enhanced through close
and frequent interaction with other Federal          3
                                                       The Threshold program is a program to assist countries that are not quite eligible
Government organizations to coordinate               to apply for MCC assistance to become eligible.


                                                                                      April 1, 2005 — September 30, 2005

8
                               Semiannual Report to the Congress

    Sound Accountability and                                 understanding of the Madagascar Compact
                                                             implementation structure.
    Oversight of Compacts
                                                             To understand the professional and regulatory
    The Millennium Challenge Corporation is still
                                                             environment in which audits are conducted in
    a relatively new organization which has not yet
                                                             Madagascar, the team met with the Madagascar
    reached its optimum stage of organizational
                                                             accounting standards body (Le Conseil
    development, and which will be implementing
                                                             Superieur de la Comptabilite [CSC]),
    development Compact programs based on an
                                                             the Supreme Audit Institution (Chambre
    innovative development assistance model that
                                                             des Comptes de la Cour Supreme de
    has not been previously tested. These programs
                                                             Madagascar [SAI]), and the professional
    will be implemented in countries where varying
                                                             association of accountants (L’Ordre des
    degrees of corruption are prevalent and standards
                                                             Experts Comptables et Financiers de
    of accountability vary. Furthermore, the Compact
                                                             Madagascar [OECFM]).
    programs will be overseen by an MCC staff with
    varying levels of government and private sector          The CSC is a government body responsible for
    experience, which could add to the programs’             establishing the accounting standards for Madagascar.
    potential vulnerabilities.                               Our discussion included the standards-setting
                                                             process, actual standards and related sanctions for
    Given the inherent vulnerabilities of MCC’s programs,
                                                             non-compliance, and the OIG’s role in ensuring the
    the OIG has continued its proactive involvement to
                                                             accountability of MCC assistance to Madagascar.
    ensure that the programs are effectively managed
    and held to stringent accountability. During the         The SAI is headed by a President and is responsible
    past six-month period, we have expanded the              for auditing all government and government
    process by reviewing and assessing the oversight         corporations’ funds and activities. In addition to
    capabilities of Compact-implementing entities and        gaining an understanding of the SAIs organizational
    the auditing capabilities of potential auditing ﬁrms     structure and audit process, we discussed the OIG’s
    and government audit institutions in Madagascar          need to ensure effective audit coverage of MCC
    and Honduras.                                            activities and to assess the capabilities of ﬁrms
                                                             conducting audits of MCC assistance.
    Madagascar
                                                             The OECFM provides oversight for the accounting
    On April 18, 2005, the United States, through the        and auditing profession, which includes determining
    Millennium Challenge Corporation, signed a four-         certiﬁcation and practice requirements, as well
    year Compact with the Government of the Republic         as requirements to maintain certiﬁcation. We
    of Madagascar worth close to $110 million. This          also discussed the OIG’s role in ensuring the
    ﬁrst Millennium Challenge Compact is intended to         accountability of MCC assistance to Madagascar.
    reduce poverty and stimulate economic growth in
    Madagascar by focusing on three areas: property          The team then provided training on the audit
    rights, the ﬁnancial sector, and agricultural business   requirements to 20 representatives from the
    investment.                                              interested CPA ﬁrms and the accounting and
                                                             auditing authoritative bodies. That presentation
    To ensure management accountability of the U.S.          covered audit standards, the reporting process and
    assistance to Madagascar, an OIG team consisting         IG quality control procedures over audits of MCC
    of staff from our Washington headquarters and            assistance.
    our regional ofﬁce in Dakar, Senegal made a ﬁeld
    visit to Madagascar to qualify local accounting          The team then visited the local ofﬁces of CPA ﬁrms
    ﬁrms to audit MCC assistance and to gain an              interested in conducting audits of MCC assistance.
April 1, 2005 — September 30, 2005

                                                                                                                                      9
                                 Semiannual Report to the Congress

This process included a review of eight audit ﬁrms                        the audit ﬁrms, we believe ﬁve audit ﬁrms have the
over a 5-day period, each visit lasting about three                       capabilities to perform audits of MCC funds.
hours. Prior to each visit, audit ﬁrms had completed
questionnaires providing information on, among                            During the visit, we held discussions with the
other things, their afﬁliations with international audit                  proposed MCA-Madagascar representatives to
ﬁrms. At the conclusion of the ﬁeld visit on July 29,                     discuss program status and proposed accountability
2005, the team had debated the scoring of each ﬁrm                        procedures to effectively account for program funds
visited, documented the overall process so that it                        and other resources. We also conducted an audit-
could be replicated in other MCC countries, and                           requirements presentation for the proposed MCA
developed a CPA Firm Proﬁle Matrix from which                             Madagascar staff, which included representatives of
the OIG will make the ﬁnal selection of approved                          the proposed ﬁscal and procurement agent.
ﬁrms. As a result of the meetings and evaluations of




      AIG/MCC Briefs MCA Madagascar Staff on Program Oversight and Accountability




        Photograph of representatives from MCA Madagascar, OIG and the entity contracted as the Fiscal and Procurement Agent




                                                                                                      April 1, 2005 — September 30, 2005
10
                             Semiannual Report to the Congress

  While in Madagascar, we also met with the American     Audit ﬁrms are required to be a member of 

  Ambassador and the USAID Mission Director to           the “Colegio Hondureno de Profesionales
  brief them on our oversight responsibilities for the   Universitarios de Contadores Públicos” to
  MCC Madagascar program. Also, staff from the           perform audits in Honduras.
  OIG’s Regional Inspector General’s ofﬁce in Dakar,
  Senegal provided valuable assistance during our        During our meeting with these entities we discussed:
  review in Madagascar.                                  the requirements to become a Certiﬁed Public
                                                         Accountant in Honduras, the standards-setting
  Honduras                                               process, actual auditing standards and related
                                                         sanctions for non-compliance, and the OIG’s role
  On September 25, 2005, the United States, through      in ensuring the accountability of MCC assistance
  the Millennium Challenge Corporation, signed a         to Honduras. We were informed that in Honduras,
  ﬁve-year Compact with the Government of the            a high school graduate is qualiﬁed to perform
  Republic of Honduras worth close to $215 million.      bookkeeping services in both the public and private
  This Millennium Challenge Compact is intended          sectors. Additionally, an individual that completes
  reduce poverty and spur economic growth by             the accounting studies at the local university is
  increasing productivity of high-value crops and        considered a Certiﬁed Public Accountant.
  improving transportation links between producers
  and markets.                                           We were also informed that the SAI is headed
                                                         by a President and is responsible for auditing
  To ensure management accountability of the U.S.        all government and government corporations’
  assistance to Honduras, an OIG team consisting         funds and activities. In addition to gaining an
  of staff from our Washington headquarters and          understanding of the SAI organizational structure
  our regional ofﬁce in San Salvador, El Salvador,       and audit process, we discussed the OIG’s need to
  made a ﬁeld visit to Honduras to qualify local         ensure effective audit coverage of MCC activities
  accounting ﬁrms to audit MCC assistance and to         and to assess the capabilities of ﬁrms conducting
  gain an understanding of the Honduras Compact          audits of MCC assistance.
  implementation structure.
                                                         The team then provided training on the audit
  To understand the professional and regulatory          requirements to 18 representatives from the
  environment in which audits are conducted in           interested CPA ﬁrms and the accounting and
  Honduras, the team met with the “Junta Técnica”        auditing authoritative bodies. That presentation
  for the “Ley sobre Normas de Contabilidad y            covered audit standards, the reporting process and
  de Auditoría”, the Supreme Audit Institution           IG quality control procedures over audits of MCC
  “Tribunal Superior de Cuentas” [SAI]), and the         assistance.
  Board of Directors for the professional association
  of accountants, the Colegio Hondureno de
  Profesionales Universitarios de Contadores
  Públicos.

  The “Junta Técnica” was established in February
  2005 as a technical and specialized entity to follow
  up and disseminate the International Financial
  Information Norms and the Audit International
  Norms. The “Junta Tecnica” is headed by the
  National Banking and Insurance Commission.


April 1, 2005 — September 30, 2005

                                                                                                                            11
                                Semiannual Report to the Congress

                                OIG Representatives Provide Training to
                            Local Accounting Firms and SAI Staff in Honduras




         Photograph of representatives from local audit ﬁrms SAI and OIG Staff.


The team then visited the local ofﬁces of CPA ﬁrms                        the team had evaluated the scoring of each ﬁrm
interested in conducting audits of MCC assistance.                        visited, documented the overall process so that it
This process included a review of eight audit ﬁrms                        could be replicated in other MCC countries, and
and the SAI over a 5-day period, with each visits                         developed a CPA Firm Proﬁle Matrix from which the
lasting approximately two hours. Prior to each visit,                     OIG will make the ﬁnal selection of approved audit
audit ﬁrms had completed questionnaires providing                         ﬁrms. As a result of the meetings and evaluations
information related to their ﬁrms including their                         of the audit ﬁrms, we believe ﬁve audit ﬁrms and
afﬁliations with international audit ﬁrms. At the                         the SAI have the capabilities to perform audits of
conclusion of the ﬁeld visit on September 30, 2005,                       MCC funds.




                                                                                              April 1, 2005 — September 30, 2005

12
                                  Semiannual Report to the Congress


       AIG/MCC Meets with SAI Honduras Staff on Program Oversight and Accountability





            Photograph of representatives from SAI Honduras, and OIG.



  During the visit, we held discussions with the                        While in Honduras, we also met with the American
  proposed MCA-Honduras representatives to                              Ambassador and the USAID Mission Director to
  discuss program status and proposed accountability                    brief them on our oversight responsibilities for the
  procedures to effectively account for program funds                   MCC Honduras program.
  and other resources. We also conducted an audit-
  requirements presentation for the proposed MCA
  Honduras staff, which included representatives of
  the proposed ﬁscal and procurement agent.




April 1, 2005 — September 30, 2005

                                                                                                          13
                           Semiannual Report to the Congress

Ensuring Sound Oversight and                            at the request of the Senate Foreign Relations
                                                        Committee, GAO initiated a second monitoring
Accountability through Coordi-                          and oversight review of MCC.
nation with Other Government
Entities                                                As we plan and initiate our audit work at MCC,
                                                        we coordinate with GAO on an ongoing basis
The MCC was given broad ﬂexibility to                   to ensure there is no duplication of effort while
accomplish its mandate and establish itself as a        making sure that all relevant areas relating to MCC
model organization that is transparent, embraces        are covered. For example, we discuss such areas
accountability, and is results-oriented. Support        as access to MCC information and work plans
of this unique development concept requires             to ensure that there is no duplication of effort
that we establish clear expectations and avoid          and that all relevant areas are covered. We also
duplication of effort with other government             discuss MCC management issues and the progress
units with oversight responsibilities. Speciﬁcally,     and results of our ongoing oversight work.
the Inspector General Act of 1978, as amended,
requires that “In carrying out responsibilities         In a September 2005 meeting, we shared our FY
established under this Act, each Inspector General      2006 audit plan with GAO representatives and
shall give particular regard to the activities of the   discussed the areas where we plan to expend
Comptroller General of the United States with           our resources. As a result of these activities,
a view toward avoiding duplication and ensuring         we are able to establish a reasonable degree of
effective coordination and cooperation.”                assurance that MCC’s risks and vulnerabilities are
                                                        being addressed and reported to MCC and to the
We have established an extensive coordination           Congress.
process with the Government Accountability
Ofﬁce (GAO), which includes ongoing interaction         Ofﬁce of Management and
with GAO staff involved in responding to                Budget
Congressional requests for oversight of MCC’s
operations. Moreover, as part of our coordination       OMB’s predominant mission is to assist the
efforts, the GAO participates in our annual             President in overseeing the preparation of the
planning conference.                                    Federal budget and to supervise the administration
                                                        of Executive Branch agencies. OMB evaluates the
Our coordination with the Ofﬁce of Management           effectiveness of agency programs, policies, and
and Budget (OMB) revolves around obtaining a            procedures, and ensures that they are consistent
clear understanding of the ﬁnancial and program         with Administration policies. OMB also oversees
management regulations applicable to MCC                and coordinates the Administration’s procurement,
in keeping with its broad program ﬂexibilities.         ﬁnancial management, information, and regulatory
Where there are areas that require debate, we           policies.
initiate early dialogue to ensure compliance with
important reporting time lines.                         The OIG has established a working relationship
                                                        with OMB in order to keep abreast of current
The Government Accountability                           OMB guidelines and expectations as they relate
Ofﬁce                                                   to MCC operations and to our audit work.
                                                        This coordination and interaction help provide
As the Congressional oversight agency, the GAO          reasonable assurances that MCC is in compliance
has the authority and responsibility to review          with applicable OMB requirements.
Federal programs and to respond to special
requests of the Congress. In September 2005,

                                                                            April 1, 2005 — September 30, 2005

14
                             Semiannual Report to the Congress

  Other Federal Agencies
  Several Federal agencies will be responsible for
  administering MCC funds. For example, USAID is
  providing technical assistance to MCC Threshold
  Countries to help them become eligible for
  MCC Compacts. MCC has allocated $80 million
  to USAID for this activity and has approved an
  additional $105 million. We have taken steps to
  ensure that those funds will be audited as the
  Threshold activities move forward. Other Federal
  agencies that will be disbursing MCC funds include
  the Army Corps of Engineers, the Department of
  Agriculture, and the Treasury Department. We have
  notiﬁed the Inspectors General of these agencies
  of the existence of these agreements and will be
  coordinating the oversight of agreement funds with
  them.




April 1, 2005 — September 30, 2005

                                                                                                          15
                           Semiannual Report to the Congress


Strategic Objectives to Address Management Challenges

Introduction                                              • 	 Preserve and protect program and employee
                                                              integrity.
Management challenges are deﬁned as risks and
vulnerabilities that need to be addressed by             Activities undertaken to meet these goals included
management. Having been established for less than        a meeting with the Board Chair; ongoing dialogue
two years, the Millennium Challenge Corporation          with the General Accountability Ofﬁce; conducting
faces the normal challenges of any new organization:     a fraud-awareness brieﬁng in September 2005;
developing ﬁnancial systems, hiring staff, determining   working with MCC’s Board of Directors to develop
applicable laws and regulations, developing internal     a charter for the Audit Committee; working with
controls, and developing an effective program            Corporation management to develop effective
management and oversight methodology. And                audit recommendation follow-up procedures; and
within the past six months, MCC signed its ﬁrst ﬁve      issuing two audit reports with recommendations to
Compacts and will soon face the daunting challenges      improve MCC’s operations.
of implementing new and innovative programs in
complex overseas environments—with differences           Keeping Congress and the
in language, laws and accountability standards as        Head of MCC Fully Informed
well as varying degrees of corruption in many of the     on the Status of the MCC’s
countries where it will likely implement programs.
                                                         Administration and Operations
To clearly understand these challenges and to            and the Need for Corrective
select the appropriate OIG response to them, we          Action
undertake an extensive annual planning process,
obtaining views and concerns on issues affecting         This strategic goal is designed to make sure
MCC as well as soliciting feedback on the usefulness     that potential management challenges and
of our work. Participants in this planning process       progress thereon are addressed early and openly
include congressional staff, representatives of          by communicating on an ongoing basis with
USAID, OMB and GAO, and senior managers of               Corporation management, the Board, and the
MCC. In July of 2005, we presented our tentative         Congress to keep them abreast of OIG activities
ﬁscal year 2006 audit plan to MCC managers and           relevant to MCC. Speciﬁcally, the OIG:
obtained their comments and feedback, which
will be assessed and considered as we ﬁnalize our         • 	Prepares and submits semiannual reports to
plans.                                                       Congress as required. The IG Act requires
                                                             that the OIG provide Congress with written
In addition, the OIG has four strategic goals                reports of its activities and accomplishments
consistent with the IG Act of 1978, as amended,              every six months. The reports include our
under which we will conduct audits and reviews to            audit and investigative highlights as well as
help MCC address and overcome its management                 summaries of signiﬁcant audits performed
challenges. These four strategic goals are to:               during the reporting period. This is our third
                                                             Semiannual Report to Congress and covers the
    	
 • Keep   Congress       and    MCC     Management           period ending September 30, 2005.
   informed.

 • 	 Promote sound accounting and reporting.

 • 	 Promote economy, efﬁciency and effectiveness.

                                                                            April 1, 2005 — September 30, 2005

16
                              Semiannual Report to the Congress

     • 	 Presents timely brieﬁngs to the Board, Chief       Audit of the Millennium Chal-
         Executive Ofﬁcer (CEO) and key MCC ofﬁcials
         on critical problem areas identiﬁed by OIG
                                                            lenge Corporation’s Compliance
         audits and investigations. For example, in May     with the Provisions of the Feder-
         we met with the Board Chair to introduce           al Information Security Manage-
         OIG staff, brief her on OIG policies and           ment Act of 2002
         operating preferences, and obtain her views
         and concerns vis-à-vis MCC and the OIG. We         The Federal Information Security Management Act
         have regular frequent meetings with the CEO        of 2002 (FISMA) requires agencies to develop, doc-
         and continuing interactions with MCC senior        ument, and implement an agency-wide information
         management. In our meetings with the CEO,          security program to protect its information and
         we discussed signiﬁcant audits as well as the      information systems, including those provided or
         status of MCC’s management controls, and           managed by another agency, contractor, or other
         program oversight and monitoring efforts.          source.
     • 	 Continues to present timely brieﬁngs to key        This audit met the FISMA requirement for an
         congressional staff on the status of signiﬁcant    annual evaluation of the Millennium Challenge
         OIG audit and investigative activities, problems   Corporation’s information security program. Its
         and issues identiﬁed by these efforts, and the     objective was to determine if MCC’s information
         necessity for and progress of corrective actions   security program met the requirements of the
         being taken by MCC.                                FISMA.
     • 	 Conduct audits and distribute audit reports to     MCC partially met the FISMA requirements. It
         MCC management and congressional staff in          reported on its security program in ﬁscal year 2004
         a timely manner. All nonclassiﬁed audit and        and plans to do so in ﬁscal year 2005. However, it
         review reports are transmitted to appropriate      had not established and documented its information
         congressional committees.                          security program in eight key areas as required by
                                                            FISMA. The information security program had not
  Promoting Sound Accounting and                            been documented because MCC had not applied
  Reporting on Financial Activities                         the necessary resources to comply with the FISMA
                                                            requirements. Consequently, MCC’s operations
  and Information Security                                  and assets are at risk of fraud, misuse, and disrup-
  This strategic goal addresses MCC’s challenges of         tion.
  developing effective ﬁnancial management systems
                                                            The audit report includes eight recommendations
  and the related internal controls. These systems
                                                            to assist MCC in strengthening its information
  should be designed to ensure that MCC prepares,
                                                            security program. MCC Management agreed with
  records and reports reliable ﬁnancial data relating
                                                            the audit ﬁndings and agreed to implement all eight
  to its administrative and program operations. The
                                                            recommendations. As a result, a management deci-
  OIG initiated three audits this period to address
                                                            sion has been reached on each of the eight recom-
  these challenges: an audit of the MCC’s compliance
                                                            mendations.
  with the Federal Information Security Management
  Act of 2002 (FISMA), an agreed-upon procedures            A prior audit report also contained a recommen-
  audit covering MCC’s employee beneﬁts program,            dation that MCC document an Agency-wide infor-
  and a Financial Statement audit.                          mation system security program; MCC is still in



April 1, 2005 — September 30, 2005

                                                                                                           17
                          Semiannual Report to the Congress

the process of completing ﬁnal action on that rec-     related to the review of its ﬁnancial and accounting
ommendation. (Appendix A, page 22)                     system.

(Report No. M-000-05-003-P)                            The MCC has initiated corrective actions to
                                                       remedy this reportable condition during ﬁscal year
Audit of Millennium Challenge                          2005.
Corporation’s Consolidated Fin-
                                                       Promoting Economy, Efﬁciency,
ancial Statements, Internal Con-
                                                       and Effectiveness, and Assessing
trols, and Compliance for the
                                                       Program Results
Fiscal Year 2005
                                                       This strategic goal addresses MCC’s challenges
The OIG and the MCC are working collaboratively
                                                       related to human resources, determining the
so that the OIG can issue the ﬁscal year 2005 audit
                                                       applicability of laws and regulations, and developing
report on MCC’s consolidated ﬁnancial statements,
                                                       an effective management oversight methodology.
internal controls, and compliance by November 15,
                                                       We have undertaken the following audits to
2005. This schedule, which was agreed to by the
                                                       better understand management’s response to
MCC and the OIG, has been adopted one year
                                                       these challenges and to provide management with
ahead of the Ofﬁce of Management and Budget’s
                                                       recommendations to address the vulnerabilities
(OMB) requirement for submitting audited ﬁnancial
                                                       associated with them.
statements within 45 days of the ﬁscal year-end.
This audit was begun in July, under OIG oversight,
by a non-Federal audit ﬁrm. The auditor will
                                                       Survey of Millennium Challenge
perform a full-scope ﬁnancial statement audit of       Corporation’s Coordination with
MCC’s FY 2005 ﬁnancial statements in accordance        Other Donors to Implement Its
with OMB Bulletin 01-02, Audit Requirements for        Assistance Program
Federal Financial Statements.
                                                       This survey, conducted to determine what progress
The auditor will determine whether the principal       MCC has made in complying with and reporting on
ﬁnancial statements present fairly, in all material    coordination with other donors, found that MCC
respects, the ﬁnancial position of MCC as of           has made progress in complying with and reporting
September 30, 2005, in conformity with generally       on Millennium Challenge Act of 2003 requirements
accepted accounting principles. The auditor will       for other donor coordination, but needs to do so
also obtain an understanding of the design of          in a more substantive and timely manner. Although
internal controls, determine whether they have         MCC has taken steps to implement and report
been placed in operation, and assess the level of      on coordination assistance, it has not formally
control risk relevant to management’s assertion        established a policy, issued guidelines, or made
relative to the ﬁnancial statement.                    reporting requirements known.
For ﬁscal year 2004, the OIG issued its audit          Now that ﬁve compacts have been signed and more
report in January 2005 on the ﬁrst set of ﬁnancial     are imminent, MCC needs to move expeditiously in
statements prepared by MCC for the nine month          formalizing its draft policy and guidance concerning
period ended in September 2004. This audit             donor coordination requirements. This should help
was performed by a non-Federal accounting ﬁrm          ensure continuity in how the transaction teams
with OIG oversight. In its report, the audit ﬁrm       perform and report on their donor coordination
identiﬁed one reportable condition in internal         efforts. MCC donor coordination efforts cross
controls, resulting in one instance of noncompliance   departmental areas within MCC. A single donor
                                                                            April 1, 2005 — September 30, 2005

18
                             Semiannual Report to the Congress

  coordination ofﬁce that has direct control over      Investigations: Prevention and
  MCC does not exist; therefore, an organization-
  wide policy and guidance concerning donor
                                                       Fraud Awareness
  coordination is needed.                              OIG investigative priorities are twofold: ﬁrst,
                                                       to preserve and protect program and employee
  We recommended that MCC formally establish an
                                                       integrity within the Millennium Challenge
  organization-wide policy and guidance concerning
                                                       Corporation; second, to prevent fraud, waste,
  donor coordination to comply with the Millennium
                                                       and abuse within MCC programs and operations.
  Challenge Act and that the policy and guidance
                                                       During the current reporting period, the OIG has
  be approved at a sufﬁcient level within MCC for
                                                       placed emphasis on preventive strategies as part
  proper implementation. This guidance should
                                                       of our oversight responsibilities. Use of proactive
  include information on, among other things, (1)
                                                       preventive strategies has proven to be very
  how donor coordination efforts by transaction
                                                       effective in combating fraud, waste and abuse.
  teams will be monitored and evaluated, (2) roles
  and responsibilities of the transaction teams and    Accordingly, the OIG has employed a number of
  other responsible program ofﬁces, and (3) formal     such strategies. For example, fraud-awareness
  plans to comply with Millennium Challenge Act        training is given to employees, contractors,
  reporting requirements for coordinating with the     grantees and others. This training alerts
  U.S. Agency for International Development, other     participants to fraudulent practices and schemes
  United States foreign assistance programs, and       and advises them on how to report fraud if it is
  other donors. Further, the Compact document          encountered. When requested, the training is
  should contain information on where donor            tailored for presentation for speciﬁc groups, such
  coordination efforts can be found in the compact     as contracting ofﬁcers or Cognizant Technical
  or supplemental attachments.                         Ofﬁcers.       Most important, investigations
                                                       resulting in criminal and/or civil prosecution are
  (Report No. M-000-05-002-S)
                                                       publicized on the Agency’s website and in other
                                                       publications—calling attention to prosecutive
  Preserving and Protecting the                        action taken against individuals or organizations
  Millennium Challenge Corpora-                        convicted of fraud. The publication of prosecutive
  tion’s Program and Employee                          actions serves as a deterrent to fraud, waste and
                                                       abuse.
  Integrity
                                                       In addition, the OIG has developed several
  This strategic goal is designed to foster the
                                                       publications and promotional materials.           The
  integrity of program and operational activities.
                                                       newest publication, “What an Investigation Means
  Our focus on the prevention of fraud and
                                                       to You,” outlines the types of activities the OIG
  protection of resources is to ensure MCC’s
                                                       investigates, the purpose of its investigations, the
  employees and programs are of the highest
                                                       investigative process, and the employee’s role in that
  integrity and to enhance the awareness of MCC
                                                       process. Another publication, “What to Report,”
  staff to potential indicators of fraud. To achieve
                                                       provides speciﬁc guidelines for making complaints
  this goal, during this period we presented our
                                                       to the OIG Hotline. The “Fraud Indicators”
  third fraud-awareness briefing to MCC staff.
                                                       publication encourages the reader to explore
                                                       various techniques to identify indications of fraud.
                                                       Furthermore, OIG Hotline posters, ﬂyers, and cards
                                                       have been distributed to the OIG’s overseas ofﬁces
                                                       and MCC headquarters. In an effort to expand our
                                                       outreach efforts, these materials were produced in

April 1, 2005 — September 30, 2005

                                                                                       19
                           Semiannual Report to the Congress

English, Spanish, French and Arabic. On September
14, 2005, the OIG, represented by staff from the
Assistant Inspector General for Investigations and
the Assistant Inspector General for the Millennium
Challenge Corporation, presented a brieﬁng on
fraud awareness to approximately 40 members of
MCC.

MCC was advised of the mission of the Assistant
Inspector General for Investigations (Investigations),
which focuses on the preservation and protection
of program and employee integrity relative to
the activities of USAID, the MCC, the African
Development Foundation, and the Inter-American
Foundation. It is the responsibility of Investigations
to (1) investigate allegations of fraud, waste and
abuse in programs and operations, giving priority
to cases involving major fraud; (2) prevent fraud,
waste and abuse in programs; and (3) preserve
and protect employee integrity by conducting and
concluding investigations of employee integrity
efﬁciently and expeditiously. Investigations employs
both proactive and reactive strategies to carry out
its mission.




                                                         April 1, 2005 — September 30, 2005

    21




A
P
P
E
N
D
I
C
E
S
22
                                  Semiannual Report to the Congress

                                              REPORTS ISSUED

                                      April 1, 2005 through September 30, 2005


                   Date of                                                                                   Amount of Findings    Type of
  Report Number    Report                                       Report Title                                      ($000)          Findings
  M-000-05-003-P 06/20/2005     Audit of the Millennium Challenge Corporation’s Compliance with the
                                Provisions of the Federal Information Security Management Act of 2002
  M-999-05-002-S   09/30/2005
                                Audit of Millennium Challenge Corporation’s Compliance Coordination with
                                Other Donors to Implement Its Assistance Program




       SIGNIFICANT AUDIT RECOMMENDATIONS 

     DESCRIBED IN PREVIOUS SEMIANNUAL REPORT 

              WITHOUT FINAL ACTION

                                                  As of September 30, 2005

                                                                                                                                Final
                                                                                             Rec.          Management
     Report Number                  Subject of Report                    Issue Date                                            Action
                                                                                             No.           Decision Date
                                                                                                                             Target Date

     M-000-04-001-P      Documenting an Agency-wide                      09/30/2004            1            09/30/2004
                         information system security program
                         in accordance with the requirements
                         of the Federal Information Security
                         Management Act of 2002

     M-0000-05-001-C     Require the Corporation’s service               01/27/2005            1            01/27/2005
                         provider – National Business Center
                         – to conduct an internal control review
                         of its Oracle Financial System


     M-000-05-002-P      Formalize and document the                      03/31/2005            1            03/31/2005
                         Corporation’s administrative and
                         program internal control system and
                         establish a deﬁned timetable for
                         completing the process

     M-000-05-002-P      Conduct an evaluation of the                    03/31/2005            1            03/31/2005
                         Corporation’s internal control system
                         consistent the FMFIA and OMB
                         implementing guidance




April 1, 2005 — September 30, 2005                                                                                                Appendix A

                                                                                                               23
                             Semiannual Report to the Congress


                              Reporting Requirements

  Summary of Instances in Which                            underway that will allow an agency to achieve
  Information or Assistance Was                            substantial compliance with FFMIA.
  Refused
                                                           In our previous Semiannual Report, issued as of
  The Inspector General Act of 1978 (Public Law 95-        March 31, 2005, we reported that during our fiscal
  452), as amended, requires the identiﬁcation of any      year 2004 financial statement audit, we determined
  reports made to the head of the agency describing        that MCC’s financial management system was not
  where information or assistance was refused or not       in substantial compliance with the Federal financial
  provided. During this reporting period, there were       management system requirements under the Federal
  no reports to the Millennium Challenge Corporation       Financial Management Improvement Act (FFMIA) of
  describing instances where information or assistance     1996 and OMB Circular A-127, Financial Management
                                                           Systems.
  was unreasonably refused or not provided.
                                                           FFMIA financial system requirements state that
  Decisions and Reasons for Significant                    a system should comply with OMB Circular A-
  Revised Management Decisions                             127, Financial Management Systems. That Circular
                                                           requires an agency to conduct an internal control
  The Inspector General Act requires that each             review of all Federal financial systems in accordance
  Inspector General’s Semiannual Report to the U.S.        with FMFIA.
  Congress include a description and explanation of
  significant revisions of management decisions. During    MCC does not have its own financial system.
  this reporting period, there were no significant         Instead, it has contracted with the Department
  revisions of management decisions.                       of Interior’s National Business Center (NBC)
                                                           to provide accounting and IT services, including
  Significant Management Decisions                         usage of NBC’s Oracle Federal Financials System
  with Which the Inspector General                         application. However, the NBC had not conducted
                                                           an internal control review, such as a Statement of
  Disagrees                                                Auditing Standards (SAS) 70 review, of the Oracle
                                                           Federal Financials System, nor had MCC requested
  The Inspector General Act requires that each             NBC to conduct such a review.
  Inspector General’s Semiannual Report to the
  U.S. Congress include information concerning any         The result of omitting such a review was that
  significant management decisions with which the          management did not have a comprehensive
  OIG is in disagreement. During this reporting period,    understanding of the system’s internal controls and
  there were no management decisions with which the        the risks involved in conducting system transactions.
  OIG disagreed.                                           According to MCC, they are the first organization to
                                                           use the system, which is a new system for NBC.
  Remediation Plan
                                                           MCC’s management agreed to request that during
  The Inspector General Act requires an update on          fiscal year 2005 the NBC conduct an internal control
  issues outstanding under a remediation plan required     review of the Oracle Financial System called for by
  by the Federal Financial Management Improvement          OMB Circular A-127.
  Act of 1996 (FFMIA). FFMIA requires agencies
  to substantially comply with (1) Federal financial       MCC did request that NBC conduct the required
  management system requirements, (2) Federal              internal control review and it was completed in
  Accounting Standards, and (3) the U.S. Standard          September 2005. Our audit of MCC’s fiscal year
  General Ledger at the transaction level. According       2005 financial statements, currently underway, will
  to OMB Circular No. A-11, an agency that is not          determine if the review effectively remedies the
  substantially compliant with FFMIA must prepare a        deficiency.
  remediation plan. The purpose of the remediation
  plan is to identify fiscal year activities planned and


Appendix B                                                                      April 1, 2005 — September 30, 2005

24
                            Semiannual
                            Semiannual Report
                                       Report to
                                               to the
                                                   the Congress
                                                       Congress

                          OIG STATISTICAL SUMMARY

                                      As of September 30, 2005


                                     INVESTIGATIVE ACTIONS




                                       NOTHING TO REPORT





April 1, 2005 — September 30, 2005                                 Appendix C

Millennium Challenge Corporation

      Ofﬁce of Inspector General
    1300 Pennsylvania Avenue, NW
            Room 6.06D
       Washington, DC 20523




   The Semiannual Report to the Congress

        is available on the Internet at 

 www.usaid.gov/oig/public/semiann/mcc1.htm

